                                                        U. S. Department of Housing and Urban Development
                                                                                 Office of Inspector General
                                                                                New York-New Jersey Office
                                                                               26 Federal Plaza – Room 3430
                                                                                  New York, NY 10278-0068



                                                                MEMORANDUM NO: 2012-NY-0801

May 8, 2012

MEMORANDUM FOR: Charles Coulter, Deputy Assistant Secretary, Single Family Housing,
                                                HU



FROM:           Edgar Moore, Regional Inspector General for Audit, New York/New Jersey, 2AGA

SUBJECT:        Corrective Action Verification
                Office of Single Family Program Development
                Housing Counseling Assistance Program
                Audit Report 2006-NY-0001


                                            INTRODUCTION

We completed a corrective action verification regarding the recommendations made to the U.S.
Department of Housing and Urban Development’s (HUD) Office of Single Family Program
Development pertaining to our review of HUD’s monitoring of the Housing Counseling
Assistance Program, Audit Report 2006-NY-0001, issued June 8, 2006. The purpose of the
corrective action verification was to determine whether the audit recommendations had been
implemented and the deficiencies cited in the report had been corrected.

For each recommendation without a management decision, please respond and provide status
reports in accordance with HUD Handbook 2000.06, REV-4. Please furnish us copies of any
correspondence or directives issued because of the review.

                                  METHODOLOGY AND SCOPE

The corrective action verification focused on the seven recommendations from the subject audit
report. To accomplish our objective, we reviewed the audit report and associated supporting
documentation, as well as the HUD manangement decisions and the supporting documentation
used by HUD to close the recommendations. In addition, we interviewed officials from HUD’s
Single Family Housing, Office of Single Family Program Development. A non-statistical
sample was selected from housing counseling grants awarded to more than 500 national,
regional, and local organizations in fiscal year 2010. In addition, we selected a sample that
included grantees from each of the four homeownership centers. We selected five national and

    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
regional intermediaries and five local agencies awarded grants from each of the four
homeownership centers for a total of 25 grantees. The total amount of the grant awards was
almost $73 million awarded to national and regional intermediary housing counseling agencies,
local housing counseling agencies, multi-State agencies and State housing finance agencies. The
amount awarded to the selected grantees was more than $12 million, or more than 16 percent of
the total grants awarded. To complete our corrective action verification, we reviewed form
HUD-9902, Housing Counseling Agency Activity Report, and form HUD-96010, Logic Model,
submissions from the sampled agencies. In addition, we reviewed four agencies’ monitoring
files from our sample to determine whether the management decisions had been implemented.

                                             BACKGROUND

Finding 1 of the subject audit report noted that HUD’s controls did not allow adequate reporting
on Program performance or relate to Program objectives. Specifically, (1) the data reported on
the form HUD-9902 activity reports1 were inaccurate and not current, (2) performance goals did
not measure the effects of grant funds on the Program objectives, and (3) some departmental
Program objectives were not measured. These deficiencies occurred because HUD officials had
not established controls to effectively measure the number of clients counseled each year with
grant funds and did not adequately track the impact of the housing services. Finding 2 of the
report noted that HUD’s oversight and monitoring of local housing counseling agencies was not
adequate to ensure that the agencies conducted activities in accordance with HUD requirements
and grant agreements. Therefore, improvement was needed in the following areas: (1) verifying
the accurate completion of the form HUD-9902 activity reports; (2) monitoring of the grant-
funded housing counseling agencies for compliance with their grant agreements, specifically, the
cost reimbursement principles; and (3) providing training opportunities and technical assistance
to counseling agencies regarding the administrative functions of the Program. These weaknesses
were attributed to HUD officials’ failure to establish and implement the necessary written
procedures to properly monitor and administer the Program. The audit report contained
recommendations for the Director of HUD’s Office of Single Family Program Development to

        1A.      Establish controls for housing counseling agencies that will ensure an accurate
                 account of clients counseled with HUD funds and the outcome of this counseling.

        1B.      Implement procedures for HUD’s reporting that provide for more timely
                 information and the reporting of actual results in later reports when estimates are
                 used.

        1C.      Provide justifications that the funds allocated to the Program are an efficient use
                 of resources. The justification should include measurements of the impact that
                 the grant funds have on achieving Program goals.

        1D.      Establish a system that effectively measures all Program objectives and goals and
                 ensures that the system can provide the information necessary to determine
                 whether the Program is meeting its objectives and achieving its goals.

1
  The HUD form 9902 is used to records the amount of housing counseling and education activities conducted or
services performed by agencies participating in HUD’s Housing Counseling Program.

                                                       2
       2A.     Establish and implement appropriate written procedures for HUD to ensure that
               data on the HUD-9902 activity reports are accurate, complete, and, therefore,
               useful as a management tool.

       2B.     Establish and implement written procedures for reviewing grantee financial
               management systems and grant costs for compliance with Program requirements.

       2C.     Provide necessary training regarding the administrative functions of the Program.
               The training should be provided to both housing counseling agencies and HUD
               Program specialists. It should include but not be limited to proper reporting on
               HUD-9902 activity reports, client management systems, and grant accounting.

Finding 1 Proposed Management Decisions

In response to recommendation lA, HUD was to revise the form HUD-9902 activity report and
the form HUD-9910 performance review checklist. In addition, HUD was to develop a standard
operating procedures guide for Housing Counseling Program staff. The revisions to the activity
form were to include new counseling outcomes, which would minimize the selection of “other”
as an outcome, as well as improved formatting that would reduce possible errors. These
revisions were to ensure that HUD-approved agencies provided a more accurate account of
clients counseled with HUD funds, as well as the outcome of this counseling. The changes to the
monitoring review checklist required reviewers to analyze the agency’s most recent activity
report, form HUD-9902, submission for errors as a standard part of the review and provide
technical assistance when needed. The standard operating procedures guide was to include
written procedures for HUD staff to follow when conducting quality control reviews of the
HUD-9902 activity reports submitted by HUD-approved agencies.

In regard to recommendation 1B, HUD was to begin collecting the form HUD-9902 activity
reports quarterly in fiscal year 2007. Doing so would allow the Program office to base estimates
of annual outcomes reported in HUD’s performance and accountability report on more recent
data. Further, HUD claimed that it was already standard practice to report actual results in later
reports when estimates were used.

For recommendation 1C, HUD agreed to complement each of the four existing programmatic
performance indicators, which were percentage based, with a tracking indicator that reported the
amount of counseling and education activity that occurred relative to the indicator.

In response to recommendation lD, Office of Single Family Housing Program Development staff
intended to revise the Program objectives in the Housing Counseling Program handbook.

Finding 2 Proposed Management Decisions

In regard to recommendation 2A, HUD was writing a standard operating procedures guide for
Housing Counseling Program staff. The guide was to include written procedures for HUD staff
to follow when performing quality control reviews of the HUD-9902 activity reports submitted

                                                3
by the HUD-approved agencies. Moreover, HUD was to revise the monitoring review checklist,
form HUD-9910, requiring reviewers to analyze the agency’s most recent form HUD-9902
submission for errors as a standard part of the review, and provide technical assistance when
needed.

For recommendation 2B, HUD was to revise the form HUD-9910 performance review checklist
to incorporate written procedures for staff to follow when reviewing grantee financial
management practices and their compliance with all Program requirements. Moreover,
guidelines regarding the use of the performance review checklist were to be included in the
standard operating procedures guide for Housing Counseling Program staff.

For recommendation 2C, as part of its training initiative with HUD, Neighbor Works was to
develop a new training course for housing counselors that included administrative functions of
the Program. Additionally, in September 2006, the Program office planned to conduct an
interactive satellite training broadcast for counseling agencies and HUD staff to review the
changes to the form HUD-9902 activity report including its improved instructions and
completion procedures.

By January, 2007, HUD’s Office of Inspector General (OIG) had concurred with all of the
proposed management decisions. HUD’s management decisions on the recommendations were
closed by September, 2010.

                                    RESULTS OF REVIEW

HUD officials had generally implemented management decisions to address the
recommendations in the report. Specifically, five of the seven recommendations cited in the
report had been corrected. Thus, two management decisions had not fully corrected the
deficiencies identified in the audit report since either they were ineffective or HUD officials had
made additional Program changes. Specifically, the controls HUD officials established for
housing counseling agencies that were intended to ensure an accurate account of clients
counseled with HUD funds and the outcomes of the counseling were not effective. We attribute
this condition to the fact that the implemented management decision did not address correcting
the deficiency in a timely manner. Also, HUD could not accurately measure the impact of grant
funds on meeting the Program objectives. We attribute this condition to HUD officials’
changing the way they measured and reported on the Housing Counseling Program’s impact (e.g.
the performance and accountability report was replaced by two reports neither of which
contained specific performance indicators [see the third bullet that follows]). Thus, the
deficiencies that HUD’s controls did not allow adequate reporting of Program performance and
that performance goals did not measure the effects of grant funds on the Program objectives had
not been corrected. During the corrective action verification, it was determined that HUD
officials had

       Made changes to the form HUD-9902 activity report and form HUD-9910 performance
       review checklist and established written standard operating procedures requiring HUD
       staff to conduct quality control reviews of the activity reports and provide technical
       assistance when needed in response to recommendation 1A. However, the agencies

                                                4
continued to submit activity reports that did not provide accurate data. Specifically, the
corrective action verification found that the activity reports did not total as instructed and
the agencies frequently used “other” as an outcome selection, even when HUD provided
additional outcome choices for each type of counseling. The use of the nonspecific
outcome measurements hindered HUD officials in determining the effectiveness of the
counseling.

Implemented procedures that required agencies to submit the form HUD-9902 activity
report quarterly for recommendation 1B.

Provided the total numbers for counseling and education activities that occurred relative
to the four performance indicators for the fiscal years 2007 through 2009 performance
and accountability reports as its means to justify (1) that the funds allocated to the
Program were an efficient use of resources and (2) its measurement of the impact of the
grant funds on achieving Program goals in regard to recommendation 1C. However,
HUD could not accurately measure the impact of grant funds on meeting Program
objectives because HUD had changed the way it measured and reported on the Program’s
impact. The performance and accountability report was replaced by two separate reports,
the agency financial report and the agency performance report, neither of which
contained specific performance indicators. In addition, HUD officials reported that they
had begun measuring and reporting on the impact of the Housing Counseling Program,
both internally and externally, through a variety of means, such as (1) publishing and
reporting form HUD-9902; (2) conducting housing counseling research; and (3) through
HUD’s single family management action plan. HUD officials explained that they were
also working to develop a more expansive set of metrics to evaluate Program
performance and analyze consumer outcomes and regularly report these outcomes to the
public.

Revised the Program objectives in the Housing Counseling Program handbook for
recommendation 1D.

Included quality control reviews of the form HUD-9902 activity reports in the standard
operating procedures guidelines and recently included language in the form HUD-9910
performance review to ensure the accuracy of form HUD-9902 in response to
recommendation 2A.

Revised the form HUD-9910 performance review to incorporate written procedures for
staff to follow when reviewing grantee financial management practices and their
compliance with all Program requirements. Moreover, guidelines regarding the use of
the performance review checklist were included in the standard operating procedures
guide for Housing Counseling Program staff in regard to recommendation 2B.

Provided training to both housing counseling agencies and HUD Program specialists
regarding the administrative functions of the Program for recommendation 2C.



                                          5
                                       CONCLUSION

The deficiency that HUD’s controls did not allow adequate reporting on Program performance
had not been corrected. The controls HUD officials established for housing counseling agencies
that were intended to ensure an accurate account of clients counseled with HUD funds and the
outcomes of the counseling were not effective. As a result, reported information could not be
relied upon. HUD officials need to ensure that the data it receives from the housing counseling
agencies can be relied upon as valid and useful. Therefore, HUD officials need to strengthen
controls over the reporting mechanisms used by the housing counseling agencies to reduce
errors. Also, HUD officials need to implement controls to verify and correct in a timely manner
the information that the housing counseling agencies report. Likewise, HUD officials need to
work with the housing counseling agencies to further reduce the number of nonspecific
responses for outcome measurements.

The deficiency that performance goals did not measure the effects of grant funds on the Program
objectives had not been corrected. HUD officials could not accurately measure the impact of
grant funds on meeting Program objectives because effective controls and procedures had not
been established and implemented. HUD officials stated that they exclusively used form HUD-
9902 for reporting Program outcomes. However, since the form HUD-9902 activity report data
were not accurate, HUD staff could not measure whether the Program met its performance goals,
nor could it determine the effects of the grant funding on the performance goals of the Program.
As a result, HUD officials could not measure the impact of HUD grant funds on Program
outcomes. Therefore, HUD officials need to accurately distinguish between counseling
outcomes that resulted from HUD funding and outcomes from the overall Program.
Accordingly, HUD officials need to (1) establish performance goals to define the level of
performance to be achieved by the Program; (2) express goals in an objective, quantifiable, and
measurable form; (3) establish performance indicators to be used; (4) provide a basis for
comparing actual Program results with the established performance goals; and (5) describe the
means to be used to verify and validate measured values.

                                  RECOMMENDATIONS

We recommend that the Acting Deputy Assistant Secretary, Single Family Housing,

1A.    Reopen recommendation 1A in HUD’s Audit Resolution and Corrective Action
       Tracking System, which was to establish controls for housing counseling agencies that
       will ensure an accurate account of clients counseled with HUD funds and the outcome of
       this counseling. This can be accomplished by:
               (1) Developing procedures that will validate the completeness of grantee outcome
                   data submissions, which would include requiring the grantees to make
                   necessary corrections before publicizing results; and
               (2) Requiring grantees to provide explanations when counseling outcomes are
                   identified as “other” and continue to modify outcomes to ensure that the
                   effectiveness of the Program will be measured.




                                               6
1B.   Reopen recommendation 1C in HUD’s Audit Resolution and Corrective Action Tracking
      System, which was to provide justifications that the funds allocated to the Program are an
      efficient use of resources. The justification should include measurements of the impact
      that the grant funds have on achieving Program goals. Specifically, HUD officials
      should:
              (1) Develop and implement procedures to ensure that the effectiveness of the
                  funding provided can be accurately measured by establishing objective and
                  measurable performance standards and evaluating the effectiveness of the
                  funding provided against those standards.




                                              7
                        APPENDIXES

Appendix A
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




Comment 1




                             8
Ref to OIG Evaluation   Auditee Comments




Comment 1




                          9
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         10
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         11
                         OIG Evaluation of Auditee Comments

Comment 1   The auditees’ comments are responsive to the finding.

Comment 2   Single Family Housing officials disagree that the Housing Counseling Program’s
            performance goals did not measure the effects of grant funds on Program
            objectives. Further, officials contend that performance standards are in place and
            are being tracked. However, HUD officials could not accurately measure the
            impact of grant funds on meeting Program objectives because effective controls
            and procedures had not been established and implemented. HUD officials stated
            that they exclusively used form HUD-9902 for reporting Program outcomes.
            However, since the form HUD-9902 activity report data were not accurate, HUD
            staff could not measure whether the Program met its performance goals, nor could
            they determine the effects of the grant funding on the performance goals of the
            Program.

Comment 3   Single Family Housing officials are in the process of establishing an Office of
            Housing Counseling and will review alternatives to the form HUD-9902 activity
            report. Officials acknowledge that any new data collection instrument will have
            procedures in place to validate the completeness of grantee outcome data
            submissions. The auditees’ comments are responsive to the finding.

Comment 4   Single Family Housing officials indicate that no action is planned at this time
            regarding Recommendation 1B. Officials provide that performance standards are
            in place and are being tracked and that these performance goals may change when
            the new Office of Housing Counseling is established. However, HUD officials
            could not effectively measure the impact of HUD grant funds on Program
            outcomes. Therefore, HUD officials need to accurately distinguish between
            counseling outcomes that resulted from HUD funding and outcomes from the
            overall Program. Accordingly, HUD officials need to (1) establish performance
            goals to define the level of performance to be achieved by the Program; (2)
            express goals in an objective, quantifiable, and measurable form; (3) establish
            performance indicators to be used; (4) provide a basis for comparing actual
            Program results with the established performance goals; and (5) describe the
            means to be used to verify and validate measured values and make this
            information available on a HUD public website.




                                            12
